         Short-Run Costs and Postal Pricing




                             January 9, 2013




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-13-004
U.S. Postal Service Office of Inspector General                                                 January 9, 2013
Short-Run Costs and Postal Pricing                                                             RARC-WP-13-004



                       Short-Run Costs and Postal Pricing


                                        Executive Summary

The Postal Accountability and Enhancement Act (PAEA) altered the previous
relationship between costing and pricing at the U.S. Postal Service, but it still
maintained the requirement that each product cover its attributable cost. 1 Therefore, the
Postal Service’s estimate of attributable cost for each product could be considered its
price floor. The current product cost system is based on estimates of long-run costs;
however, recently, there have been suggestions that the Postal Service could consider
pricing at least some of its products to cover short-run costs. The U.S. Postal Service
Office of Inspector General (OIG) briefly discussed this issue in its white paper, A
Primer on Postal Costing Issues. 2

The OIG asked Professor Michael D. Bradley of the Economics Department of George
Washington University, an expert in postal economics, to co-author this paper on pricing
and short-run costs. This paper defines what is meant by short-run and long-run costs,
explores the issues associated with using short-run costs when developing prices,
outlines what information is needed to measure short-run costs, and develops a
multistep algorithm for estimating short-run costs that is consistent with the existing
Postal Service cost system. It first focuses on explaining why short-run costs arise and
how they can be used in pricing, in general terms, and then investigates their
applications for the Postal Service. Developing a specific recommendation regarding the
Postal Service using short-run costs to develop prices is beyond the scope of this
paper.

The distinction between long run and short run for a firm is defined by its ability to adjust
its inputs, mainly labor and physical capital. If a firm is able to adjust inputs to their
optimal levels, it is considered to be operating in the long run. If a firm cannot adjust its
inputs to an optimal level, it is considered to be operating in the short run.

The Postal Service may be operating under short-run conditions and therefore may
want to consider setting prices for at least some of its products using short-run costs.
Under the proper conditions, this approach could help mitigate the costs of excess


1
  Public Law 109-435, Postal Accountability and Enhancement Act (120 Stat. 3205), requires each
competitive product to cover its direct and indirect costs. Public Law 109-435, Postal Accountability and
Enhancement Act (120 Stat. 3201), includes a factor that each class or type of mail must bear the direct and
indirect postal costs attributable to it. While it has been acknowledged that the price cap requirement trumps
this factor, the Postal Regulatory Commission has stated that the Postal Service must demonstrate that it is
working towards setting prices that cover each product’s costs. See the discussion of this issue starting on
page 13 of the fiscal year (FY) 2010 Postal Regulatory Commission’s Annual Compliance Determination
Report, http://www.prc.gov/Docs/72/72382/PRC_ACD_2010.pdf.
2
  U.S. Postal Service Office of Inspector General, A Primer on Postal Costing Issues, Report No. RARC-WP-12-008,
March 20, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-008.pdf.


                                                        i
U.S. Postal Service Office of Inspector General                                January 9, 2013
Short-Run Costs and Postal Pricing                                            RARC-WP-13-004


capacity by increasing volume through lower prices. However, the improper use of
short-run costs to develop prices could worsen the Postal Service’s financial condition.

The Postal Service should move towards the use of short-run costs to develop prices if
and only if (1) it can reliably determine that the response in demand will generate
sufficient additional net revenue and (2) it can measure short-run costs accurately and
update them regularly. In addition, there are a number of important issues that must be
considered before one could be confident that using short-run costs would not harm the
Postal Service:

       Using short-run costs can result in prices that may generate additional revenue in
        the short term but will still not allow the Postal Service to cover its institutional
        costs.

       Because short-run costs are more volatile, they can lead to prices that are more
        volatile. This makes it difficult for consumers to plan their purchases of both
        postal products and related goods.

       Prices act as signals to consumers. If consumers know that a low price is
        temporary, they may simply adjust the timing of when they purchase mail instead
        of increasing the volume of mail purchased. If consumers view the lower prices
        as being permanent (when they are not), they may inefficiently overinvest in
        technology needed to produce mail.

       The effectiveness of using prices based on short-run costs depends on
        consumer response. If consumers do not increase demand in response to a
        lower price, the Postal Service will just lose revenue as a result of lowering the
        price.

       Accurate development of the inputs required for calculating short-run costs is not
        always straightforward and would likely take a significant effort. For example,
        operational experts would need to identify and quantify which postal inputs
        cannot be adjusted.

       Finally, the Postal Service may lose incentive to move to the more optimal long-
        run operational environment if it starts pricing based on short-run costs.

Even if the Postal Service can accurately measure short-run costs, and finds using them
to develop prices can lead to additional revenue, the use of short-run costs does not
lead to a reduction in total costs to the Postal Service. Setting prices based on short-run
costs should be seen only as a temporary solution while the Postal Service continues to
move toward a more optimal operating environment.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                  January 9, 2013
Short-Run Costs and Postal Pricing                                                                              RARC-WP-13-004




                                                 Table of Contents

Introduction ..................................................................................................................... 1

Definition and Theoretical Basis of Short-Run and Long-Run Costs ............................... 2

Determining Why Short-Run Costs Arise ........................................................................ 3

The Role of Short-Run Costs in Pricing........................................................................... 4
          Price Stability ........................................................................................................ 6
          Price Signaling...................................................................................................... 7
          Consumer Response ............................................................................................ 7
          Firm Response ..................................................................................................... 8
          Calculation of Costs.............................................................................................. 8

Short-Run Costs in a Postal Service Context .................................................................. 9
          Seasonal Short-Run Issues ................................................................................ 10
          Secular Short-Run Issues ................................................................................... 11

Toward Constructing a System of Short-Run Costs for the Postal
Service .......................................................................................................................... 12
          The Analytical Basis for Calculating Short-Run Marginal Cost ........................... 12
          An Algorithm for Calculating Short-Run Marginal Cost for the
          Postal Service..................................................................................................... 14
          Informational Requirements for Calculating Short-Run Marginal
          Cost .................................................................................................................... 19
          A Process for Review and Evaluation of Short-Run Costs ................................. 20

Conclusion .................................................................................................................... 21




                                                                 iii
U.S. Postal Service Office of Inspector General                                                         January 9, 2013
Short-Run Costs and Postal Pricing                                                                     RARC-WP-13-004




                                                        Table

Table 1           Hypothetical Postal Example of the Relationship Between
                  Volume and Capacity Utilization .............................................................. 17


                                                      Figures

Figure 1          Algorithm to Estimate Short-Run Costs ................................................... 15

Figure 2          The Cost-minimizing Choice of Inputs ..................................................... 25

Figure 3          Short-Run and Long-Run Response to an Increase in Output................. 26

Figure 4          Short-Run and Long-Run Response to a Decrease in Output ................. 27

Figure 5          Total Cost Curves .................................................................................... 29

Figure 6          Average Cost Curves ............................................................................... 30

Figure 7          Long-Run and Short-Run Marginal Costs ................................................ 31

Figure 8          Short-Run Cost Curves ............................................................................ 32


                                                   Appendices

Appendix A The Theoretical Basis for Short-Run Costs.............................................. 23

Appendix B Questions Associated with Basing Prices on Short-Run
           Costs........................................................................................................ 35

Appendix C Practical Issues Measuring Short-Run Marginal Costs ............................ 38




                                                            iv
U.S. Postal Service Office of Inspector General                                                   January 9, 2013
Short-Run Costs and Postal Pricing                                                               RARC-WP-13-004




                        Short-Run Costs and Postal Pricing


Introduction
Recently, there have been suggestions that the U.S. Postal Service needs to adjust its
product costing system to account for excess capacity in the network. The argument is
that the current product costing system uses estimates of long-run costs, 3 and that in
times of excess capacity, long-run costs unfairly burden products with the cost of the
excess capacity through higher prices.

While the Postal Service is no longer under a breakeven requirement, costs still play an
important role in the pricing process for several reasons. First, a price cap does not set
prices but rather limits their increase. Second, products must still cover their attributable
costs, which may be either short-run costs or long-run costs. This is exactly the way the
Postal Service based its prices upon costs in the Standard Mail Volume Incentive
Pricing Programs. In those programs it demonstrated that the proposed lower prices
exceeded short-run marginal cost even if they did not exceed long-run marginal cost.
Third, without measuring costs it is impossible to determine whether a product’s price is
high enough for the product to be making a positive contribution to defraying institutional
costs. Any firm would want to know the contributions made by each of its products and
would want to adjust costs accordingly. Fourth, when evaluating a new product or
service, it is essential to determine if the proposed prices covers the product’s marginal
cost. Without calculating costs correctly, this analysis cannot be accurately done.

This paper defines what is meant by short-run and long-run costs, explores the
possibility of using short-run costs when developing prices, outlines what information is
needed to develop short-run costs, and develops a process for review and evaluation of
short-run costs. It first focuses on explaining where short-run costs come from and how
they can be used in pricing, in general terms, and then investigates their applications for
the Postal Service.

This paper finds that the Postal Service may want to consider setting its prices using
short-run costs in certain circumstances. However, it must be understood there are risks
to doing so. The Postal Service should consider using short-run costs as a basis for
price, if and only if (1) it can accurately determine that the response in demand to short-
run prices will generate sufficient additional net revenue and (2) it can measure short-
run costs accurately.




3
 See Appendix C for a discussion of why the costs estimated in the Postal Service’s product costing system are
considered to be long-run costs.


                                                         1
U.S. Postal Service Office of Inspector General                                                       January 9, 2013
Short-Run Costs and Postal Pricing                                                                   RARC-WP-13-004


Definition and Theoretical Basis of Short-Run and Long-Run Costs
The distinction between long run and short run is not formally defined by time. Instead, it
is defined by a firm’s ability to adjust its inputs (labor and capital). A firm is considered to
be operating in the long run when it is able to adjust all inputs to their optimal levels —
that is, the combination of inputs that result in the lowest cost for a certain level of
output. 4 A firm is considered to be operating in the short run when it cannot adjust its
inputs to their optimal levels. On a practical basis, although the long-run/short-run
distinction is not formally defined by time, it is intimately
related to time, because the ability of a firm to adjust its            A firm is in the short
inputs is linked to the time it takes to make the adjustments.          run when it cannot
                                                                                         adjust at least one of
The theoretical basis for short-run costs is explained in detail                         its inputs (labor and
in Appendix A, but the following is a summary of the key                                 capital) to its optimal
points developed there:                                                                  levels.

        Short-run total cost for a firm is generally greater and never less than long-run
         total cost for a firm. This means that it is worse for a firm’s financial performance
         to be in the short run. For example, if a firm is in the short run because of excess
         capacity in one or more of its inputs, it still has to pay for that capacity even if it
         does not use it.

        Under certain conditions, a firm’s short-run marginal cost can be less than its
         long-run marginal cost. 5 In other words, the additional cost of supplying more
         output could be less in the short run than in the long run. This occurs when the
         firm has excess capacity of a fixed input and does not need as much additional
         variable inputs to produce additional output.

        A firm for which short-run marginal cost is less than long-run marginal cost may
         benefit financially by lowering its price so that it only covers short-run marginal
         cost. However, this will only benefit the firm if the additional revenues are higher
         than the additional variable cost. 6 In this situation, the firm can generate
         additional contribution that helps defray the fixed cost of the inflexible input.

These theoretical results raise the possibility that using short-run costs could benefit the
Postal Service, but a number of important issues must be resolved before one could be
confident that using short-run costs would not hurt the Postal Service. We investigate
these issues in this paper.




4
  This is not to say that all inputs are completely flexible in the long run. See Appendix A for a discussion of why some
inputs will remain fixed in the long run.
5
  Marginal cost is the additional cost caused when the firm produces an additional unit of output. For the Postal
Service, the marginal cost is the cost of handling an additional piece of mail.
6
  Variable cost is cost that changes when the firm’s level of output changes.


                                                           2
U.S. Postal Service Office of Inspector General                                January 9, 2013
Short-Run Costs and Postal Pricing                                            RARC-WP-13-004


Determining Why Short-Run Costs Arise
There are a number of reasons why a firm might find itself in a short-run position, i.e., it
is in a situation where it cannot adjust at least one of its inputs to its cost-minimizing
level. The implications for how a firm should respond to being in the short run will vary
based on the reason the firm cannot adjust the input(s). Below we describe several
reasons why short-run costs arise (why a firm may be unable to adjust all of its inputs),
but these reasons are not meant to be mutually exclusive. A firm could be in the short
run for more than one of these reasons at the same time.

       Intentional overcapacity – When the transaction costs of acquiring additional
        amounts of a particular input are very high, it may be rational for a firm to
        purchase “too much” of that input relative to current production levels. For
        example, perhaps a firm is building a traffic tunnel or a gas pipeline for which
        adding capacity in the future is extremely expensive and the firm anticipates that
        demand will be increasing in the future. In this
        situation, the firm may intentionally acquire        How a firm should respond
        more capacity than it needs in the present or        to being in the short run
                                                             depends, in part, on why
        near future and will be operating in a position
                                                             the firm is in the short run.
        of short-run excess capacity.

       Accidental undercapacity or overcapacity – Many times a firm must acquire its
        inputs in advance of production. If the transaction costs of acquiring or reducing
        an input are high, or time consuming, the firm may have to commit to the amount
        of the input it will acquire far in advance of actual production and sale. In those
        instances, the firm must forecast its future sales. Often those forecasts are in
        error and the actual amount of the input that the firm needs is greater or less than
        it had acquired.

       Fluctuating demand – The demand for a firm’s product may fluctuate over the
        course of a day, a month, or a year. If one of the inputs cannot be easily
        adjusted, the firm will find that it is in a position of suboptimal capacity during
        some time periods. If the firm acquires enough of this “lumpy” input to serve the
        peak periods, then it will have overcapacity during slack periods. In contrast, if
        the firm acquires just enough of the lumpy input to serve periods of average
        demand, then it will have insufficient capacity during peak periods.

       Persistent rise or fall in demand – A firm may experience a situation in which the
        demand for its product is persistently rising or falling. This can cause it to face
        extended periods of time with a suboptimal level of capacity. Suppose the firm
        faces a persistent fall in demand. Although the firm may have minimized costs to
        produce the current level of volume, as demand falls, the capacity will become
        too large. Eventually the firm will adjust and reduce its capacity, but because the
        decline in demand is persistent, that new lower level will also eventually become
        too large. This ongoing process may cause the firm to suffer from repeated
        periods of excess capacity.



                                                  3
U.S. Postal Service Office of Inspector General                                     January 9, 2013
Short-Run Costs and Postal Pricing                                                 RARC-WP-13-004


       Indivisibility of the fixed factor – Certain inputs are indivisible, meaning that they
        cannot be readily broken down into smaller units. For example, the Flat
        Sequencing System (FSS) machines can only be purchased as a whole; it is not
        possible to purchase just a part of one. If the demand for the firm’s good is less
        than the minimum capacity of one unit of the input, the firm will have excess
        capacity. In addition, if the firm’s demand falls in between the capacities
        associated with the whole unit amount of the input, it will have to choose between
        excess and insufficient capacity.

       Legal or regulatory restrictions on adjustment – There can be instances in which
        the firm stays at a suboptimal level of capacity even when it could adjust its
        inputs. This is because the firm faces a legal or regulatory requirement to
        maintain its current level of capacity. A universal service requirement is an
        example of a regulatory requirement that may force the firm to sustain excess
        capacity. Alternatively, it may have legally enforceable labor agreements that
        preclude it from making the desired adjustment of its labor force.

       Internal impediments to adjustment – Sometimes internal barriers hinder a firm’s
        ability to adjust one or more of its inputs. Resistance to any change in the status
        quo, lack of acceptance of the changing market demand, decentralized decision-
        making, and inability to coordinate a reduction in inputs across departments or
        divisions are all examples of internal impediments that may stop a firm from
        adjusting its inputs. In addition, there may be reasons why a firm would not make
        the adjustment even when it was needed to minimize costs. The firm may not
        want to send public signals (such as closing a facility) that the demand for its
        product is falling. Or the firm may fear consumer, regulatory, or political backlash
        against the adjustment.


The Role of Short-Run Costs in Pricing
When a firm is operating in the long run, there is only one set of product costs that the
firm considers when setting prices. However, when the firm is operating in the short run,
a choice arises. Should the firm base its prices on long-run costs or short-run costs?

In pure economic theory, there is little uncertainty about when firms should use short-
run costs as the basis for setting prices. This is because both the role of short-run costs
and the firm’s goals are well defined and unambiguous. In economic theory, the “fixity”
in the short run for a profit maximizing firm is usually discussed as a situation in which
the firm’s “plant” or “factory” is fixed in size. This reflects the fact that for most firms it is
more difficult to adjust its physical capital input — buildings and equipment — than it is
to adjust its labor input. Once the firm’s “plant” is fixed, it then attempts to maximize
profits given that plant size. To do so, it uses its short-run marginal cost curve in setting
price or output.

For a monopoly, the theoretical distinction between the short-run and the long-run cost
curves is rarely considered, because a monopoly chooses its price and associated level


                                                  4
U.S. Postal Service Office of Inspector General                                                        January 9, 2013
Short-Run Costs and Postal Pricing                                                                    RARC-WP-13-004


                                           of production. Because of its market power, the
    There is not a universal               monopoly does not have to take its price from the
    answer to the question of              market. This means that, in theory, there is no reason
    which costs, short-run or
                                           for the monopoly to be off its long-run marginal cost
    long-run, should serve as
    the basis for a firm’s
                                           curve. As a result, the theoretical cost analysis of a
    pricing decisions.                     monopoly is typically the same for short run and long
                                           run.

But, this is just in theory. As previously discussed, in practice there are a variety of
reasons why a monopoly firm may not be operating at its cost-minimizing plant size. If
one of these reasons causes a monopoly firm to be away from its optimal capacity for a
material period of time, then the monopoly firm has the option of setting its prices based
upon short-run marginal cost rather than long-run marginal cost. This option arises
because the monopoly firm is a “price setter” not a “price taker” and typically sets price
above marginal cost. 7 For example, this issue arises for utilities such as electric
companies or water systems that are often legal monopolies and use large, indivisible
units of capital in the production of their goods.

Experience has shown that there is not a universal answer to the question of which
costs, short-run or long-run, should serve as the basis for the firm’s pricing decisions. 8
There are advantages and disadvantages to each choice. The primary advantage of
using long-run marginal cost as the basis for pricing is that its use is consistent with the
“best” outcome, in which resources are efficiently allocated given the market structure.
This is the efficient outcome because consumers and firms are responding to the set of
price signals that lead them to their overall optimal choices of consumption and
production. In other words, the use of long-run marginal costs as the basis for prices
facilitates moving the market to its long-run, most profitable position.

However, during the transition to its long-run position, the use of long-run costs as the
basis for prices can lead to inferior short-run results. This fact points to the primary
advantage of using short-run marginal cost pricing — it provides the prices that can
better match demand to supply during temporary conditions in which capacity cannot be
set to its cost-minimizing value. This provides a
potential for the firm to offset its high level of short- Primary Advantage of Using
run fixed costs.                                          Short-run and Long-run Costs
                                                                          to Set Price:
Simply pricing above a product’s short-run                                Long Run — Consistent with
marginal cost does not ensure that the price is                           achieving its optimal long-run
sufficiently high so that the firm is earning a profit                    position.
on the units sold. For a positive profit to be earned,                    Short Run — May allow firm to
the firm must also charge a price that is above its                       utilize capacity when it cannot
short-run average total cost. However, in the short                       adjust all of its inputs.


7
  Other firms with market power, like “oligopolists” who sell in a market with just a few firms, also have the ability to
set prices and could face this pricing issue.
8
  For example, there has been an ongoing debate as to whether short-run or long-run marginal cost pricing should be
used in pricing electricity. For a review of this debate, see R. Anderson and M. Bohman, “Short and Long Run
Marginal Cost Pricing: On Their Alleged Equivalence,” Energy Economics, October 1985, pp. 279-288.


                                                            5
U.S. Postal Service Office of Inspector General                                                             January 9, 2013
Short-Run Costs and Postal Pricing                                                                         RARC-WP-13-004


run, the firm may want to produce and sell even if the price does not cover short-run
average total cost. If the firm’s price is above its short-run average variable cost then its
sales will contribute to covering the firm’s fixed cost, associated with the firm’s fixed
input. While this will not allow the firm to cover all of its costs in the long run, it does
allow it to reduce its losses in the short run.

From the firm’s perspective, the choice between long-run and short-run cost thus
depends upon two factors:

        The relative weight that the firm puts on these two, potentially conflicting, goals:
         achieving its optimal long-run position and utilizing its capacity in the short run.

        Whether and to what extent the use of short-run costs will actually improve
         capacity utilization in the short run, relative to the extent to which using long-run
         costs will help the firm achieve its optimal position.

In evaluating these two factors, comparison of the roles of the two types of cost can be
focused on a set of specific issues that highlight their relative strengths and
weaknesses. Each of these issues is presented and discussed below, along with an
indication of the implications for use of short-run and long-run costs.

Price Stability

Consumers prefer stable, predictable prices and can make more efficient consumption
choices when prices are relatively stable through time. 9 Stable prices lead to better
choices because price volatility erodes the information content of prices. When there is
a lot of price volatility, it is more difficult for consumers to compare the prices they pay
for relative goods. The stability of prices is particularly important when the “consumer”
(which could be another firm or government agency) is purchasing the good or service
as an input into the production of other goods. The purchase of the good at issue is then
part of the purchase of a set of inputs, some of which may be non-fungible capital
goods. For example, postage might be just one input purchased by firms that produce
and distribute catalogs. Those firms might also need to purchase computer software
and printing equipment. When the price of one input is highly variable, it makes it more
difficult for firms to choose the best amounts of all inputs.

                                        Short-run marginal costs are more variable than long-
    Pricing based on short run          run marginal costs because they change as the
    costs can lead to price             amount of the fixed input changes. Think about a
    volatility and customers tend
                                        situation in which a firm finds itself in the short run
    to prefer stable, predictable
    prices.                             because of persistently declining demand. Because it
                                        is difficult or expensive to adjust one of its inputs, this
firm will find itself regularly in the short run, even though it is attempting to adjust
capacity as demand continues to fall. This means that each adjustment of capacity only
9
 Ibid. for a discussion of the role of price stability and price signaling as they apply to the electric utility industry. For
evidence that postal customers value predictable price changes, see U.S. Postal Service and Postal Rate
Commission, Ratemaking Summit, May 28, 2002, http://www.prc.gov/prc-docs/library/archived/day1-transcript.pdf.


                                                               6
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004


temporarily brings the firm back to its cost-minimizing capacity. Once demand starts to
fall again, excess capacity will again increase.

If the firm sets its prices based upon short-run marginal cost, it will lower prices
whenever it is in a condition of excess capacity. However, after capacity is adjusted to
its optimal level, the firm will need to increase its prices to reflect the higher short-run
costs (when a firm is at its optimal capacity, short-run costs equal long-run costs). If
demand for the firm’s product follows this pattern, the prices that consumers face will
vary much more if they are based upon short-run marginal cost than if they are based
upon long-run marginal cost. The resulting variation in price makes it more difficult for
consumers to plan their purchases of both this good and related goods through time,
and represents a potential advantage of basing prices on long-run costs.

Price Signaling

Prices play an essential informational role in markets, allowing consumers to make
informed decisions about which set of purchases best satisfies their consumption
needs. In addition to their role in determining current purchases, current prices also
provide information about the future costs of acquiring goods.

Because short-run prices will differ from long-run
prices, the firm should consider the price signaling     Using prices based on short -
implications of using short-run prices. Prices           run costs can result in price
                                                         signaling that could have
based upon very low short-run marginal costs
                                                         implications on the firm’s
could lead to both overconsumption and                   revenue and consumers’
overinvestment in complementary goods. For               satisfaction over time.
example, extremely low gasoline prices might lead
consumers to buy larger, less fuel efficient vehicles. In contrast, if consumers do not
expect the low prices to continue into the future, then the use of low short-run prices
could lead consumers to simply change when they purchase a good, shifting planned
future purchases to the present. Such a response would cause a lower average
purchase price for the firm, possibly cancelling out the potential benefit to the firm from
making better use of capacity in the short run.

In sum, firms using short-run prices should be aware that their use has price signaling
effects that could have implications for both their own revenue and their consumers’
satisfaction through time.

Consumer Response

The primary advantage of using short-run costs is that the resulting prices can match
demand to supply during a period of suboptimal capacity. However, such a matching is
dependent upon the responsiveness of consumers to price changes. Consider the
situation in which the firm has excess capacity, so that the short-run marginal cost is
less than the long-run marginal cost, and the short-run price will be below the long-run
price. If consumers respond to the lower price by expanding purchases in a timely



                                                  7
U.S. Postal Service Office of Inspector General                                                    January 9, 2013
Short-Run Costs and Postal Pricing                                                                RARC-WP-13-004


fashion, then output will expand and the firm will be able to make better use of its
                             excess capacity.
 If consumers are
 generally unresponsive     However, if consumers are generally unresponsive to the
 to the price change,
                            price change, then the firm will just lose revenue as a result
 then the firm will just
 lose revenue as a result
                            of lowering the price. 10 In this instance, it is better for the
 of lowering its price.     firm to use long-run prices rather than short-run prices.
                            Similarly, if consumers’ response to price changes is very
slow, there may not be enough time for them to respond to a price decrease before the
excess capacity is eliminated. This also leads to a preference for long-run prices.

The responsiveness of consumers to a price change may be unknown or difficult to
measure. If so, the risk associated with using lower short-run prices produces an
advantage for sticking with long-run prices. 11

Firm Response

In the realm of economic theory, firms always move to the long run by adjusting the
fixed input as soon as it is practicable. This is because adjusting the amount of the fixed
input is profit enhancing and it is assumed that there are no transaction costs of making
the adjustment. Actual firms face a more complex situation, and adjusting the amount of
fixed input may have a number of impediments, both internal and external, that delay
the adjustment from taking place. These impediments not only cause the firm to be in
the short run but also increase the likelihood that the firm will stay in the short run for a
longer time.

In an environment in which the adjustment to the long run           Using short-run costs
may not be made rapidly, the impact of using short-run              to set price may
costs to set prices on the behavior of the firm needs to be         remove part of the
considered. Firms are motivated to move to the long run             incentive for the firm
because being in the short run is causing them to incur             to move to its optimal
losses or have smaller profits than are otherwise possible.         environment.
To the extent that using short-run costs leads to prices that
better match demand to supply, the short-run losses may be smaller than if the price
stayed at its long-run value. While this is obviously an improvement in the firm’s short-
run financial position, it does remove part of the incentive for the firm to move to its
efficient long-run combination of inputs. As a result, short-run pricing could harm the
firm’s long-run performance.

Calculation of Costs

A final practical consideration in using short-run costs to set prices is the firm’s ability to
calculate short-run costs in an accurate and timely way. Short-run costs are more
10
   The condition in which consumers are unresponsive to price changes is known as “inelastic demand.” When
demand is inelastic, a lower price leads to a fall in revenue for the firm.
11
   The opposite occurs during a period of insufficient capacity. Then, a lack of consumer responsiveness is a good
thing for the firm because the higher short-run prices increase firm revenues without driving customers away.


                                                          8
U.S. Postal Service Office of Inspector General                                   January 9, 2013
Short-Run Costs and Postal Pricing                                               RARC-WP-13-004


difficult to calculate than long-run costs because they include the additional
requirements of identifying the input that is not being adjusted and calculating the
                                            impact of that fixity on product costs. These
 Short-run costs are more difficult to      are relatively difficult tasks and this difficulty
 calculate and change more often            could force the firm to use approximations to
 than long-run costs. Before
                                            the actual short-run costs. These
 embarking on a short-run pricing
 strategy, the firm should be confident
                                            approximations reduce the accuracy and
 that it could accurately estimate and      reliability of short-run costs and raise a caution
 regularly update short-run costs.          with regard to their use.

                                             Also, short-run costs change when the
capacity is adjusted and would need to be calculated more often than long-run costs. If
the firm is not able to recalculate its short-run costs on a timely basis, it may find itself in
a situation in which its estimated long-run costs are closer to its true short-run costs
than are its estimated short-run costs. Before embarking on a pricing strategy based
upon short-run costs, the firm should be confident that it can accurately estimate those
costs.


Short-Run Costs in a Postal Service Context
The Postal Service would not seem to be a candidate for a short-run analysis because it
has characteristics that typically result in a firm being able to adjust its inputs — most
notably it is labor intensive and its capital is not concentrated in a few large plants.
Despite these characteristics, the Postal Service does have difficulties adjusting some
of its inputs, particularly in response to volume declines. If the decline in volume is
sufficiently large, these impediments to input adjustment make a short-run analysis a
reasonable option for the Postal Service to consider. These adjustment difficulties arise
for several reasons:

       Labor agreements limit the Postal Service’s             Despite being labor
        ability to adjust its workforce in response to          intensive, the Postal
                                                                Service faces a number of
        variations in volume. While it has obtained
                                                                difficulties adjusting some
        improved flexibility in recent labor negotiations,      of its inputs, particularly in
        the Postal Service still faces constraints on           response to volume
        adjusting labor both within a given year and            declines.
        across years.

       The Postal Service faces impediments to closing Post Offices, particularly in rural
        areas. Despite having tens of thousands of Post Offices, the Postal Service has
        been able to close only a relatively small number of them in response to recent
        volume declines. Recently it has been reducing hours at a number of smaller
        Post Offices but this does not reduce the actual numbers of offices it must
        sustain.

       There is often resistance to closing mail processing plants. The recent Mail
        Processing Network Rationalization Service Change case, which was litigated at


                                                  9
U.S. Postal Service Office of Inspector General                                                   January 9, 2013
Short-Run Costs and Postal Pricing                                                               RARC-WP-13-004


         the Postal Regulatory Commission (PRC), illustrates the challenges the Postal
         Service faces when attempting to downsize its mail processing network. 12

        Because of its universal service obligation, the Postal Service has substantial
         fixity in its delivery network and must currently provide the same frequency of
         delivery to all areas of the country regardless of mail volume. Similarly, because
         of the need to satisfy service standards, the Postal Service could have fixity in a
         number of its networks including transportation and delivery.

        In addition to external constraints, the Postal Service has a number of internal
         barriers that hinder it from adjusting its inputs. These include things like the lack
         of a well-articulated vision and a lack of data about potential savings. 13

These input inflexibilities preclude the Postal Service from always being able to operate
at optimal capacity. During periods of low volume, it may have excess capacity and
during periods of high volume it may have insufficient capacity. Moreover, because the
demand for postal products varies both within the year and across years, the Postal
Service experiences both seasonal and secular short-run issues. Both of these are
introduced and discussed below.

It is important to make a distinction between unused capacity that exists due to normal
operating conditions and unused capacity that exists due to the inability to adjust inputs
in reaction to changing market conditions. The impediments discussed in this section
preclude the Postal Service making adjustments to its inputs in reaction to the
substantially lower volumes. Note, however, that even if the Postal Service were to
achieve the optimal input mix, that does not mean that all of its resources will be fully
utilized at all times. Because of its service standards and fluctuations in demand, the
Postal Service will regularly have unused capacity in certain parts of its network on
certain days. This unused capacity is different from the excess capacity that occurs in
the short run because the Postal Service cannot adjust all of its inputs.

Seasonal Short-Run Issues

Mail volume has a pronounced seasonal pattern, with the peak volume occurring in the
first postal quarter (October through December) and the trough volume occurring in the
fourth postal quarter (July through September). 14 Because of inability to sufficiently
adjust its inputs within the year, the Postal Service faces a potential short-run condition,
with suboptimal capacity during both peak and trough periods. During the peak period,
the Postal Service faces inadequate capacity and must use additional resources to
process, transport, and deliver the mail. To the extent it must use less efficient or more
expensive methods of operation during this period, its short-run marginal cost will be

12
   U.S. Postal Regulatory Commission, “Advisory Opinion on Mail Processing Network Rationalization Service
Changes,” Docket No. N2012-1, September 28, 2012,
http://www.prc.gov/Docs/85/85269/Advisory_Opinion_%20PDF%20_09282012.pdf.
13
   U.S. Postal Service Office of the Inspector General, Barriers to Retail Network Optimization, RARC-WP-11-005,
June 9, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-005.pdf.
14
   There is some variation on when specific products have their troughs and peaks.


                                                        10
U.S. Postal Service Office of Inspector General                               January 9, 2013
Short-Run Costs and Postal Pricing                                           RARC-WP-13-004


above its long-run marginal cost. In other words, it will cost more to handle additional
mail volume than it would if the Postal Service were able to adjust all of its inputs.

                                   In contrast, during the summer volume decline, the
 Using short run costs to set
 prices in response to seasonal
                                   Postal Service will find itself in a position of excess
 variation in volume implies       capacity because it cannot reduce some of its
 charging higher prices during     inputs. During this time, its short-run marginal cost
 the peak volume times and         will be below its long-run marginal cost. In other
 charging lower prices during      words, because there is excess capacity, the
 the slack volume times.           additional cost of handling additional mail volume is
                                   less than it would be if the Postal Service were
under optimal capacity. And the inverse is also true. As volume declines, the Postal
Service sheds fewer costs than it would if it were able to adjust its inputs to be at
optimal capacity.

Using short-run costs to set prices in response to this seasonal variation in volume
would imply charging higher prices during the peak volume times and charging lower
prices during the slack volume times. This pricing approach would discourage additional
volume during the peak period, when it is expensive to handle, and encourage
additional volume during the slack periods, when it can be handled more cheaply.

This pricing mechanism is often accomplished through a system of surcharges and
discounts. Although the Postal Service has not charged surcharges during the peak
volume period, it has experimented with providing discounts for certain products during
the slack volume period. For more information on the Postal Service’s seasonal
discounts, see the brief discussion of previous work calculating short-run marginal costs
in Appendix C.

Secular Short-Run Issues

In recent years, in addition to its seasonal demand fluctuations, the Postal Service has
faced an ongoing secular demand for its products, a decline that is expected to continue
into the future. Because the volume decline is large and persistent, the Postal Service
has worked to reduce its retail, mail processing, transportation, and delivery networks in
an attempt to become fiscally viable. However, its
ongoing operational deficits suggest that it has been        The existence of ongoing
unable to reduce capacity to its long-run cost-              excess capacity raises
minimizing position.                                         the possibility that the
                                                             Postal Service may want
To the extent that this is true, the Postal Service is       to consider whether its
operating in a short-run situation of excess capacity,       pricing should be based
caused mainly by the persistent decline in demand.           on short-run or long-run
                                                             marginal costs.
This existence of excess capacity raises the possibility
that the Postal Service’s short-run marginal costs may be below its long-run marginal
costs and suggests that that the Postal Service may want to consider whether its pricing
should be based upon short-run or long-run marginal costs.



                                                  11
U.S. Postal Service Office of Inspector General                                                      January 9, 2013
Short-Run Costs and Postal Pricing                                                                  RARC-WP-13-004


Note that this secular condition is separate but potentially related to the seasonal
variations discussed above. The secular and seasonal conditions are related through
the impact of the secular excess capacity on seasonal variations in capacity. For
instance, to the extent a secular decline in demand has created excess capacity in parts
of the Postal Service network throughout the entire year, it would affect the seasonal
capacity issues. When the Postal Service has secular excess capacity, it is less likely
that it will have insufficient capacity during the seasonal peak period and more likely that
it will have greater excess capacity during the seasonal trough. This would affect the
relative sizes of the appropriate surcharges and discounts.


Toward Constructing a System of Short-Run Costs
for the Postal Service
An important part of a firm’s determination as to whether it wants to estimate and use
short-run costs is assessing the difficulties it faces in calculating them. Estimation of
short-run costs requires developing the appropriate algorithm to calculate those costs,
                              and it also creates additional informational requirements for
An important part of a        the firm. In this section we provide the analytical structure,
firm’s decision to            computational algorithm, and information requirements for
estimate and use short-
                              calculating short-run costs for the Postal Service. In
run costs is assessing
the difficulties it faces in
                              addition, in Appendix C, we discuss a number of important
calculating them.             practical issues the Postal Service faces in measuring
                              short-run costs. 15

The Analytical Basis for Calculating Short-Run Marginal Cost

The Postal Service already has a vetted costing system for calculating long-run
marginal cost, so it is efficient to embed the calculation of short-run marginal cost into
that long-run costing system. 16 Therefore, before deriving the analytical basis for a
short-run cost calculation, we start with a description of the computational relationship
between short-run and long-run marginal costs for the Postal Service.

The Postal Service estimates long-run marginal cost through calculating a series of
“component specific” long-run unit volume variable costs. A “component” or “cost
component” is an activity within the postal value chain that has an identifiable cost driver
(the main attribute that is affecting how much cost is incurred) and a relatively
homogenous relationship between the cost driver and the incurred cost. For example,
the delivery of mail on the street is a cost component, and the related cost driver is the


15
   Ideally, a short-run costing system would provide estimates of both short-run marginal cost and short-run average
incremental cost. Incremental costs are relatively complex and difficult to measure, so the Postal Service currently
does not measure long-run incremental cost for most products but rather uses a proxy called long-run “attributable”
cost. Consistent with that approach, we will discuss only the calculation of short-run marginal costs and will leave a
discussion of short-run average incremental cost to future research.
16
   One could develop a methodology to calculate short-run costs that does not rely on the current long-run costing
system.


                                                          12
U.S. Postal Service Office of Inspector General                                                         January 9, 2013
Short-Run Costs and Postal Pricing                                                                     RARC-WP-13-004


number of delivered letters, flats, and parcels pieces. 17 Similarly, the sorting of letters on
a delivery barcode sorter is another cost component and the cost driver is the pieces of
mail sorted.

With this structure in mind, we can now write the formula for calculating the unit volume
variable cost for the “𝑖th” product in the “ 𝑗th” component. The formula starts with the
accrued cost for that component, 𝐶𝑗 . The cost is then multiplied by the long-run elasticity
of cost with respect to the cost driver, 𝜀𝑗𝐿𝑅 , to form the total volume variable cost for the
component. 18 The “𝑖th” product then receives its appropriate share of that volume
variable cost, which is found by multiplying the total volume variable cost by the “𝑖th”
product’s proportion of the distribution key, 𝛿𝑖𝑗 . 19 This produces the “ 𝑗th” component’s
long-run volume variable cost for the “𝑖th” product, which is then divided by the
product’s originating volume, 𝑉𝑖 , to get the component long-run unit volume variable
cost: 20

                                                                 𝐶𝑗𝐿𝑅 𝜀𝑗𝐿𝑅 𝛿𝑖𝑗
                                               𝑈𝑉𝑉𝐶𝑖𝑗𝐿𝑅 =                        .
                                                                      𝑉𝑖

The “ith” product’s overall long-run unit volume variable cost is just the sum of the
component unit long-run volume variable costs:
                                                   𝑚                       𝑚
                                                                        𝐶𝑗𝐿𝑅 𝜀𝑗𝐿𝑅 𝛿𝑖𝑗
                                𝑈𝑉𝑉𝐶𝑖𝐿𝑅      =    � 𝑈𝑉𝑉𝐶𝑖𝑗𝐿𝑅        = �               .
                                                                             𝑉𝑖
                                                  𝑗=1                      𝑗=1


Using this general approach, the Postal Service can estimate the short-run marginal
cost for a product by using the calculation of its short-run unit volume variable cost as a
proxy. 21 This requires calculating and substituting short-run component cost elasticities
for the existing long-run component cost elasticities. Otherwise, the analytical basis is
the same as the one used for calculating long-run marginal costs, as demonstrated by
the following equation: 22


17
   As the volume of mail increases, the cost of delivering mail on the street also increases. Shape is also a cost driver
because letters are less expensive to deliver than flats, and flats are less expensive to delivery than parcels.
18
   The elasticity of cost is not the same thing as price elasticity. Cost elasticities measure how much costs change
with respect to changes in the cost driver. Price elasticities measure how much the quantity demanded for the
product changes in response to a change in price.
19
   A distribution key is a measure of what proportion of the cost component’s cost driver is caused by each product.
20
   For a mathematical demonstration of the equivalence between unit volume variable cost calculated in this way and
marginal cost see Michael Bradley, Jeff Colvin, and John Panzar, “On Setting Prices and Testing Cross-Subsidy
Using Accounting Data,” Journal of Regulatory Economics 16 (1999): 83-100.
21
   Marginal cost is a theoretical concept that is difficult to calculate. It is generally accepted in postal economics that
unit volume variable cost, which can be calculated, is a good proxy for marginal costs.
22
   In theory, short-run total cost and long-run total cost can be different. However, as a practical matter, it is not
possible for the Postal Service to have two sets of total accrued costs. This is because at a point in time the Postal
Service is either in the long run or in the short run, but not both. Formally speaking, one cannot calculate both long-
run and short-run marginal cost from one set of actual cost data. Nevertheless, as a practical matter both measures
are computable. One simply needs to start from an assumption as to whether the accrued costs for a given time
period represent long-run or short-run total cost.




                                                            13
U.S. Postal Service Office of Inspector General                                    January 9, 2013
Short-Run Costs and Postal Pricing                                                RARC-WP-13-004

                                             𝑚            𝑚
                                                                𝐶𝑗𝑆𝑅 𝜀𝑗𝑆𝑅 𝛿𝑖𝑗
                            𝑈𝑉𝑉𝐶𝑖𝑆𝑅     =   � 𝑈𝑉𝑉𝐶𝑖𝑗𝑆𝑅   = �                  .
                                                                     𝑉𝑖
                                            𝑗=1           𝑗=1


This equation demonstrates that accurately calculating short-run cost elasticities is the
primary computational challenge for the Postal
Service in calculating short-run costs. There are a        The primary computational
variety of potential methods for estimating the short-     challenge for the Postal
run elasticities and the method of estimation may          Service in estimating short-run
well differ from the method currently used to              costs is accurately calculating
                                                           short-run cost elasticities.
estimate a long-run elasticity. The central role
played by calculating these elasticities is also highlighted by a review of a computational
algorithm that the Postal Service could follow in applying the analytical structure.

An Algorithm for Calculating Short-Run Marginal Cost for the Postal Service

Just as it is logical to investigate the analytical structure for short-run marginal cost
within the Postal Service’s analytical structure for long-run costs, so too it is logical to
develop a computational algorithm for short-run costs that makes use, as much as
possible, of existing Postal Service data sources and computational methods. Such an
approach also makes it more likely that short-run costs can be updated and modified
when necessary. The multistep computational algorithm presented in this section
implements an analytical basis for short-run marginal cost calculation within the general
structure of the Postal Service’s long-run product-costing system.




                                                  14
U.S. Postal Service Office of Inspector General                                       January 9, 2013
Short-Run Costs and Postal Pricing                                                   RARC-WP-13-004

                           Figure 1: Algorithm to Estimate Short-Run Costs



        Step 1: Identify and document any inputs that cannot be adjusted to their optimal
        levels. Identify the reasons the inputs cannot be adjusted.




        Step 2: Estimate the degree of excess/insufficient capacity for each such input.
        Determine if that excess/insufficient capacity is increasing, decreasing, or staying
        the same.




        Step 3: Identify the cost components affected by the input.




        Step 4: Estimate the impact of excess/insufficient capacity on the components’
        cost elasticities. Calculate the resulting short-run elasticities.




        Step 5: Use the short-run elasticity to calculate short-run volume variable cost.




        Step 6: Combine the short-run volume variable costs by component, where
        applicable, with the remaining long-run volume variable cost by component to
        calculate the short-run unit volume variable cost by product.




Note that the proposed algorithm is discussed in terms of calculating short-run costs
arising from a secular decline in volume but that it is equally applicable for short-run
costs arising from seasonal variations in volume. To simplify this discussion, the
remainder of this description will use the term “excess” capacity but the algorithm could
also apply to “insufficient” capacity.

Step 1: Identify and document any inputs that cannot be adjusted to their optimal
        levels. Identify the reasons the inputs cannot be adjusted.
As discussed above, the difference between the long run and the short run is the fact
that in the short run at least one of the firm’s inputs cannot be adjusted. Therefore, the
calculation of short-run costs starts with identification and documentation of any inputs




                                                  15
U.S. Postal Service Office of Inspector General                                                     January 9, 2013
Short-Run Costs and Postal Pricing                                                                 RARC-WP-13-004


that have not been adjusted to their optimal levels. This would necessitate significant
input from experts in postal operations.

A place to start this analysis is with the decline in volume that has occurred since the
fiscal year (FY) 2006 volume peak. Since then, the Postal Service has lost nearly
22 percent of its volume, averaging a 5.7 percent annual decline over the period from
FY 2008 through FY 2011. Because of its persistence, and because it has continued
after the recession ended in mid-2009, this volume decline looks to be a secular
decline. It is thus possible to use the volume decline as a benchmark for identifying
which inputs have or have not been proportionately reduced. 23

In addition, the institutional structure of the Postal Service can be reviewed in order to
identify where it faces impediments in adjusting inputs. For example, labor agreements
can be reviewed to identify any contract rules that slow the Postal Service from reducing
the number of employees or hours worked. In addition, the regulatory and political
processes can be reviewed to identify any regulatory or political constraints that hinder
closing offices or downsizing networks. This process can also provide insights into
which inputs are difficult for the Postal Service to adjust.

Step 2: Estimate the degree of excess/insufficient capacity for each such input.
        Determine if that excess/insufficient capacity is increasing, decreasing, or
        staying the same.
Once it has been determined which inputs are difficult to adjust, the next step is to
estimate how far the input is away from the optimal level. That can be measured by the
degree of excess capacity in an input. This is often measured with a statistic called
“capacity utilization,” which is the ratio of the firm’s current production to its capacity to
produce.

To understand how this measure is useful, consider a simple hypothetical example in
which the Postal Service volume is assumed to be originally 200 billion pieces and the
handling of that volume required 40 million labor hours. Assume that the Postal Service
was in long-run equilibrium with respect to this labor input, and therefore was initially at
full capacity. In other words, 40 million postal labor hours have the capacity to handle
200 billion pieces of mail, so the ratio of actual production to capacity is 100 percent.

Now assume, hypothetically, that volume declined by 20 percent to 160 billion pieces
but the number of hours for this labor input stayed the same. The Postal Service’s
capacity to handle mail would remain at 200 billion pieces, although its actual
“production” would be only 160 pieces. Its hypothetical capacity utilization would be 160
billion / 200 billion or 80 percent, indicating that excess capacity exists in this activity.

23
   Note that the identification of appropriate proportional reduction in an input is not as easy as comparing the
percentage decline in volume and the percentage decline in the various inputs as reported in the Revenue, Pieces
and Weight (RPW) report. First, not all types of volume declined at the same rate and different products may make
use of different mixes of inputs. Thus, one needs to be aware of the possible impact of changes in the mix of mail.
Second, long run equilibrium may not require a proportional response in all inputs. To the extent the Postal Service
has long run economies of scale or density, the percentage decline in inputs will be less than the percentage decline
in volume even in long run equilibrium.


                                                         16
U.S. Postal Service Office of Inspector General                                                       January 9, 2013
Short-Run Costs and Postal Pricing                                                                   RARC-WP-13-004


Note that unutilized capacity can arise even if the Postal Service is able to partly adjust
its inputs. Suppose we revise the hypothetical example to allow the Postal Service to
reduce its amount of the input by 4 million hours, reducing its total labor hours to 36
million. Now its capacity to handle mail volume is 180 billion pieces. 24 After the
adjustment, the capacity utilization is 160 billion / 180 billion or 88.9 percent. This simple
example also demonstrates the point that the lower the capacity utilization, the greater
will be the excess capacity.
                   Table 1: Hypothetical Postal Example of the Relationship between
                                   Volume and Capacity Utilization

                             Sorted                                                     Sorting
                             Volume           Labor Hours         Productivity         Capacity           Capacity
                            (Billions)         (Millions)        (Pieces/Hour)         (Billions)         Utilization

 Baseline                       200                 40                5,000                200              100.0%

 Scenario 1:
 Volume Decline,                160                 40                4,000                200              80.0%
 No Adjustment
 Scenario 2:
 Volume Decline,                160                 36                4,444                180              88.9%
 Partial Adjustment



Step 3: Identify the cost components affected by the input.
The excess capacity must ultimately be translated into the implications for how cost
responds to volume changes. The first step in that process is to identify which cost
components are affected by the input that cannot be adjusted to its optimal level and
has excess capacity. The Postal Service’s product cost system assigns its general
ledger costs to a series of cost components that reflect the various activities required to
accept, transport, sort and deliver the mail. 25 By identifying which general ledger
accounts are assigned to each component, one can find which components include the
inputs being investigated.

Step 4: Estimate the impact of excess/insufficient capacity on the components’
        cost elasticities. Calculate the resulting short-run cost elasticities.

Each cost component in the Postal Service’s product cost model has a long-run cost
elasticity, which measures how quickly the component’s cost changes as the cost driver

24
   We calculate the Postal Service’s current capacity by multiplying its current hours by productivity of hours in long
run equilibrium. In the long run, volume was 200 billion pieces and labor hours were 40 million. This means that
hourly productivity was 5,000 pieces per hour. When the total number of hours is reduced to 36 million, throughput
capacity is found by multiplying those 36 million hours by 5,000 pieces per hour. That multiplication yields a capacity
of 180 billion pieces.
25
   For a detailed description of the cost components see the U.S. Postal Service, Summary Description of
USPS Development of Costs by Segments and Components, filed at the Postal Regulatory Commission
periodically, recently on July 2, 2012, http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=&docketPart=Documents&docid=83424.


                                                           17
U.S. Postal Service Office of Inspector General                                January 9, 2013
Short-Run Costs and Postal Pricing                                            RARC-WP-13-004


increases or decreases. The cost elasticities are determined in a number of ways, such
as econometric estimation, functional or engineering analysis, or operational
assumption. When calculating short-run marginal cost, the Postal Service must
consider, on a component-by-component basis, if these long-run cost elasticities are still
applicable. In any instance in which the long-run cost elasticity is not applicable, a short-
run cost elasticity must be estimated.

Short-run cost elasticities can be estimated by the same methods used for long-run cost
elasticities: econometric estimation, functional or engineering analysis, and operational
assumption. The key difference is that the short-run cost elasticity must take into
account the fixed input. For example, in econometric estimation, a long-run cost function
will estimate the relationship between a component’s total cost and its level of the cost
driver, controlling for changes in input prices, where appropriate. Such a long-run cost
function would have the general form of 𝐶 = 𝑓(𝑉, 𝑤), where 𝐶 is a component’s total
cost, 𝑉 is the amount of the cost driver produced in the component, and 𝑤 is the vector
of input prices, such as wages. A short-run cost function would also have to take into
account that one of the inputs, such as capital,𝐾, is fixed. A short-run cost function
would include this constraint explicitly in the equation and would have the general form
of 𝐶 = 𝑓(𝑉, 𝑤, 𝐾).

A functional or engineering analysis approach looks at the individual activities within a
component and makes an operational determination as to which of those activities vary
as the amount of the cost driver handled varies. A short-run approach would require
revaluating that functional determination to see if the fixed input causes a change in the
activities that vary with changes in the cost driver.

Finally, operational experience and judgment is sometimes used to determine how a
cost varies with changes in the amount of the cost driver. In estimating short-run cost
elasticity, these assumptions need to be revisited to see if they need to be revised to
take into account the fixed input. The existence of excess capacity would cause the
short-run cost elasticity to be less than the long-run cost elasticity. Just the opposite
condition would occur if there were to be insufficient capacity.

Step 5: Use the short-run cost elasticity to calculate short-run volume variable
        cost.
Once the short-run cost elasticity has been determined for a component, it can be used
to estimate the component’s short-run volume variable cost. This step is relatively
straightforward because it is embodied directly in the Postal Service’s product cost
model and does not require any restructuring of the model. The short-run volume
variable cost in a component is just the product of the accrued cost in the component
and the short-run cost elasticity. The existing distribution key can be used to attribute
the short-run volume variable cost to the products that caused it to arise.




                                                  18
U.S. Postal Service Office of Inspector General                                                  January 9, 2013
Short-Run Costs and Postal Pricing                                                              RARC-WP-13-004


Step 6: Combine the short-run volume variable costs by component, where
        applicable, with the remaining long-run volume variable cost by
        component to calculate the short-run unit volume variable cost by
        product.
It is quite likely that not all components will need adjustment to account for an inflexible
input. If so, those components will still make use of their long-run cost elasticities in
calculating unit volume variable cost. This means that the calculated short-run marginal
cost will reflect a mixture of components in which there is a short-run cost elasticity
required to estimate volume variable cost and those in which the long-run cost elasticity
continues to be used. Once the volume variable costs by product are added across
components, their sum can be divided by the respective volume to find the short-run
unit volume variable cost. 26

Informational Requirements for Calculating Short-Run Marginal Cost

The calculation of short-run marginal cost (unit volume variable cost) places additional
informational requirements on the Postal Service costing system as the current system
was not developed to estimate short-run costs.
Those additional requirements would at a              The calculation of short-run
                                                      marginal costs will place
minimum include:
                                                                    additional informational
                                                                    requirements on the Postal
        Identification of the constraints that                     Service costing system and some
         preclude the optimal adjustment of inputs.                 of these data may be challenging
                                                                    to obtain.
        Identification of the inputs that have not
         been optimally adjusted to volume changes and an enumeration of the reasons
         that adjustment did not take place.

        Empirical evidence demonstrating that certain inputs have not been adjusted
         optimally in response to volume changes.

        Data on the amount of the inputs that have not been completely adjusted along
         with historical data on their values in higher volume periods.

        Data on the capacity utilization and/or productivity for the components affected
         by lack of adjustment including identification of the long-run capacity and/or
         productivity.

        Data and information required to estimate short-run cost elasticities.

A review of these data requirements reveals that some of them may be challenging to
obtain. That is because they require operational information that might not be collected
in the normal course of business. In addition, the list includes some historical data that
may be currently unavailable or difficult to obtain from a data archive. These issues

26
  This is mathematically equivalent to calculating the unit volume variable costs by component and then summing
them.


                                                        19
U.S. Postal Service Office of Inspector General                                                    January 9, 2013
Short-Run Costs and Postal Pricing                                                                RARC-WP-13-004


suggest that the calculation of short-run costs would take significant effort to obtain
essential inputs from field operation experts as well as costing experts. 27

A Process for Review and Evaluation of Short-Run Costs

By definition, the short run is a “temporary” condition in the sense that adjustment in
either the firm’s input mix or a change in the demand for its product will return the firm to
its long-run equilibrium condition. In addition, the nature of the short-run deviation from
the firm’s long-run equilibrium depends upon the same two factors: the firm’s input mix
and the demand for its products. Because both of these factors have the potential to
change through time, the short run is a relatively fluid condition and the resulting short-
                                     run costs may change frequently through time. This
A two-prong process of               suggests that a two-prong process of review and
review and evaluation of             evaluation of short-run costs is appropriate.
short-run costs is appropriate.
The first prong is annual            The first prong is an annual review of the assumptions
review of the assumptions            and calculations associated with constructing short-
and calculations used for            run costs. As the Postal Service’s input mix changes
measuring short-run costs.
                                     and as the volumes it handles change, the nature and
The second prong is an “early
warning system” to identify          degree of its “short run” will also change.
material changes in inputs or        Consequently, the Postal Service should carefully
product demands.                     review each step in its computational algorithm for
                                     short-run marginal cost and should estimate the
degree to which a change in conditions warrants a recalculation of costs. The Postal
Service currently calculates its long-run cost on an annual basis. It would be logical for
the Postal Service to review and possibly recalculate its short-run cost at the same
frequency. However, it is not necessary, and may not be preferable, to calculate both
short-run and long-run costs at the same time. This depends upon the resources
available and the difficulty in obtaining the information needed to calculate short-run
costs.

The second prong of the short-run cost review process is an “early warning system”
designed to identify any material changes in inputs or product demands that could affect
short-run costs. For example, if the Postal Service is able to consolidate a number of
mail processing plants over a six-month period, it may be able to move toward its long-
run equilibrium position. If so, a reevaluation of the assumptions and computations
underlying the calculation of short-run costs would be appropriate. The early warning
system would consist of a listing of the key impediments, amounts of unadjusted inputs
and determinations of excess capacities that would serve as the basis for an evaluation
of any changes in input mix and product demand. Any operational or regulatory
changes that would materially affect any of the quantities on the list should trigger a
review of short-run marginal cost calculation.


27
  While the Postal Service did provide estimates of short-run costs in its summer sales, these estimates did not
involve the level of sophistication discussed in this section. See Appendix C for a discussion on the Summer Sale
methodology.


                                                         20
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004


Conclusion
Firms that are unable to adjust all of their inputs to their cost-minimizing levels can find it
useful to consider using short-run costs as a basis for price setting. The Postal Service
appears to be operating under short-run conditions, as it has multiple impediments to
moving to its optimal operating environment and the demand for its products has been
declining through time. Therefore, it might make sense for the Postal Service to
consider calculating and using short-run marginal costs to set prices for at least some of
its products.

However, there are some material risks associated with this approach. It is important
that the Postal Service is confident that the change in prices associated with short-run
costs will actually increase total revenue and that this increase in revenue will be high
enough to cover short-run variable costs. If the price change would not meet these two
conditions, it is quite possible that the Postal Service’s overall financial condition could
be worsened by the use of short-run costs. This means that if the Postal Service
decides to move towards short-run costing and pricing, it is essential that it devote
sufficient resources to accurately measure both short-run costs and consumer response
to the price change.

In addition, it is important to keep in mind that even if implemented correctly, using
short-run costs and prices is only a temporary fix and not a long-term solution. The use
of short-run prices does not solve the more fundamental problems that the Postal
Service faces. It is critical that the Postal Service still move towards optimizing its
network in order to improve its financial position.




                                                  21
U.S. Postal Service Office of Inspector General           January 9, 2013
Short-Run Costs and Postal Pricing                       RARC-WP-13-004




                                            Appendices




                                                  22
U.S. Postal Service Office of Inspector General                                                     January 9, 2013
Short-Run Costs and Postal Pricing                                                                 RARC-WP-13-004




Appendix A                 The Theoretical Basis for Short-Run Costs

The Role of Time in Defining Costs

The distinction between long run and short run is not formally defined by time. Instead it
is defined by a firm’s ability to adjust its inputs. A firm is in the long run when it is able to
adjust all inputs to their optimal levels. However, on a practical basis, the distinction
between long run and short run is intimately related to time. The ability of a firm to
adjust its inputs is linked to the time it takes to make the adjustments. The greater the
time span, the more inputs are adjustable. For example, the more facilities can be
added or downsized, the more machines can be added to or taken out of a plant.
Theoretically, if enough time is allowed to pass, the firm will be able to adjust all of its
inputs. This simple idea is the basis for the following statements about the long run,
which appear in most microeconomics textbooks, and other places:

        In the long run, all inputs are variable.

        In the long run, there are no fixed costs.

        The long run is defined as a situation in which a firm can adjust all of its inputs.

However, recent analysis has shown that the issues surrounding the adjustment of
inputs are a bit more complex than suggested by the textbook treatment. 28 To reflect
this additional complexity, the traditional dichotomy between fixed and variable costs
has been expanded. In this more thorough classification, costs are first determined to
be either “sunk” or “avoidable.” A sunk cost is irrevocable and must be paid whether the
firm operates or not. More formally, if we let 𝑦 represent a firm’s level of output and 𝑘
represent a constant, then a sunk cost is defined by the following condition:

                                            𝐶(𝑦) = 𝑘 for all 𝑦 ≥ 0.

Note that the definition implies that a sunk cost must be paid even if the firm produces
no output. 29

An avoidable cost, by contrast, is only paid when the firm produces a positive level of
output. Avoidable costs can be fixed or variable. A fixed avoidable cost is the cost
created by the use of a fixed input whose value does not vary with the level of output.




28
   See for example, R.L. Sexton, P.E. Graves, and D.R. Lee, “The Short and Long Run Marginal Cost Curve and
Pedagogical Note,” Journal of Economic Education, Winter 1993, pp. 34-37 or X.H. Wang and B.Z. Yang, “Fixed and
Sunk Costs Revisited,” Journal of Economic Education, Spring 2001, pp. 178-185.
29
   It is true that the firm may eventually be released from the cost through the passage of time (e.g., the term of a
fixed lease may run out), but this has nothing to do with whether the firm produces any output.


                                                         23
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004


An avoidable fixed cost is defined as:

                                         𝐶(𝑦) = 𝑘 for all 𝑦 > 0.

Finally, an avoidable variable cost has zero value when the firm does not produce any
output and varies with changes in the level of output produced.

This broader approach to cost classification recognizes that some of the costs that a
firm incurs only when it produces a positive level of output will not vary with level of
output no matter how much time passes. This means that it allows for costs to be fixed
even in the long run. This contradicts the traditional statement that there can be no fixed
costs in the long run and rejects the lack of sufficient time to adjust an input as the sole
basis for justifying its fixity. Instead, it suggests that the amount of an input may not be
perfectly adjustable in the long run because it is indivisible. For example a restaurant
may need to obtain a license to operate, the cost of which is independent of the number
of meals served. Because this license must be obtained every year the restaurant
operates, it is a long-run cost. Because it can be avoided if the restaurant shuts down it
is an avoidable cost and because it does not depend upon the level of production it is a
fixed cost. In sum, it is a long-run fixed cost.

In addition, indivisibility refers to the situation in which an input cannot be broken into
sufficiently small increments so as to provide the optimal amount of the input. For
example, the operator of a single-plane jet service between two cities would not be able
to adjust the size of the jet as the number of passengers varies because the jet is
indivisible. In this example the cost of the airplane is a fixed cost. But a fixed cost may
be sunk or avoidable and additional investigation is required to determine which. In the
case of the jet service operator, the fixed cost would likely be avoidable because if the
jet were not used for service between the two designated cities, it is likely to be useful
for another purpose. This means the operator could sell the jet and avoid incurring its
cost. If, on the other hand, the jet could not be sold, then the fixed cost becomes sunk
as the operator must pay the cost whether or not it provides the jet service.

In sum, all sunk costs are fixed but not all fixed costs are sunk. Total costs are defined
as the sum of sunk fixed costs (SFC), avoidable fixed costs (AFC) and variable costs
(VC). This definition of fixed costs can also be used to show the two-way classification
of costs, by technology (fixed vs. variable) and by incurrence (sunk vs. avoidable):

                                                  Fixed     Variable

                                 TC =       SFC + AFC + VC

                                             Sunk         Avoidable

The Short-Run and Long-Run in Production and the Implications for Cost

Long-run production is the situation in which a firm produces its vector of outputs at the
lowest total cost, because it is free to adjust all of its inputs to their optimal levels. In


                                                     24
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004


technical terms this occurs at the tangency of the firm’s isoquants (combinations of
inputs that produce the same level of output) and isocost lines (combinations of inputs
that cost the same amount). In other words, the firm is choosing the combination of
inputs that cost the least (smallest isocost line) and can still produce the desired level of
output (the firm is on the desired isoquant).

Short-run production involves fixing the quantity of at least one of the inputs and then
choosing the optimal amount of the remaining inputs. This means that the short-run total
cost (SRTC) can be no smaller than the long-run total cost (LRTC) and that the two cost
measures will be equal only when the amount of the fixed input happens to equal the
optimum amount for the level of output being produced. Such a situation is illustrated in
Figure 2 in which the desired level of output, yA, is being produced with the cost-
minimizing set of inputs x1A and x2A.
                            Figure 2: The Cost-Minimizing Choice of Inputs

                              x2




                                                        A
                           x2A

                                                                 yA


                                                  x1A                 x1


If the amount of x2 happens to be fixed at x2A, then the short-run and long-run costs of
production will coincide. However, this is true only for output level yA. If the desired level
of output varies, then SRTC will exceed the LRTC. Suppose that the desired level of
output expands beyond yA but the level of the second input remains fixed at x2A. The
impact on cost is illustrated in Figure 3.

Suppose that the desired level of output is increased to yB. The long-run response is to
increase the amounts of both inputs until once again there is a tangency between the
new (higher) isocost line and the new (higher) isoquant. In Figure 3, the new
combination of inputs occurs at point B, with the amounts of the two inputs set at x1B
and x2B, respectively.

Now consider the case in which the level of x2 is fixed at amount x2A. The firm now adds
x1 until it reaches the desired isoquant and is producing yB. In Figure 3, this combination
of inputs occurs at point C. The important point for cost incurrence is that while points B
and C both occur on the same isoquant, point C occurs on a higher isocost line than


                                                            25
U.S. Postal Service Office of Inspector General                                                           January 9, 2013
Short-Run Costs and Postal Pricing                                                                       RARC-WP-13-004


point B. 30 This demonstrates that the SRTC of producing yB is greater than the LRTC of
producing the same level of output.
                 Figure 3: Short-Run and Long-Run Response to an Increase in Output

                      x2




                                                              D
                        x2B
                                                    B                   C
                        x2A
                                          A                                       yB
                                                                            yA


                                              x1A       x1B       x1C                  x1



Also note that the increase in cost is smaller for the long-run response. Figure 3
demonstrates that the long-run response requires moving to the isocost line that runs
through point B. The short-run response requires moving to the isocost line that runs
through point C. This isocost line also runs through point D, which involves a higher cost
than point B. 31 This larger movement demonstrates that the short-run marginal cost
(SRMC) is greater than the long-run marginal cost (LRMC). Thus, when the short run
occurs because there is insufficient capacity (too little of the fixed input) both the SRTC
and the SRMC are greater than their long-run counterparts.

Less intuitive is the situation in which there is excess capacity of the fixed input. For
example, this situation would occur if the firm started at an output level with the optimal
combination of x1 and x2, experienced a drop in demand for its output and was unable to
adjust the amount of x2 that it uses. This situation is illustrated in Figure 4. Again, we
start the firm at output level yA, at which the amount of input x2 being used just equals
its optimal amount. We then analyze the situation in which the level of output drops
below yA, as indicated by an inward shift of the isoquant to output level yB. As was the
case for an increase in output, the long-run response to a decline in output involves

30
   The further a parallel isocost line is from the origin, the higher its associated cost of production. With fixed
input prices, total cost strictly increases as the amounts of inputs used increases.
31
   Point D requires the same amount of input x2 and more of the input x1 than does Point B.


                                                              26
U.S. Postal Service Office of Inspector General                                January 9, 2013
Short-Run Costs and Postal Pricing                                            RARC-WP-13-004


using the new, reduced, optimal amounts of both x1 and x2. In Figure 4, the new long-
run input combination occurs at point B.

In contrast, if the firm is constrained to continue to use the fixed amount of the second
input, x2A, the short-run response occurs at point C, which is the intersection of input
level x2A and the new isoquant, yB. Because the firm cannot reduce the amount of x2
that it is using, it responds with a large reduction in x1.

The isocost line associated with the short-run response, running through point C, lies
further from the origin that the isocost line associated with the long-run response, which
runs through point B. This means, like the case of expanding output, the SRTC for
producing yB will exceed the LRTC for producing the same level of output. Note that the
short-run response requires using less of the first input (x1C) than does the long-run
response (x1B). This is because the firm is using more of the second input in the short-
run response.
               Figure 4: Short-Run and Long-Run Response to a Decrease in Output


                        x2




                                   D        C           A
                         x2A

                         x2B
                                           B                     YA
                                                            YB


                                         x1C x1B   x1A                x1


Although the SRTC exceeds its long-run counterpart, the short-run marginal cost is less
than the long-run marginal cost in the case of excess capacity. The short-run response
occurs at point C and the implied short-run change in cost is the difference between the
total cost implied by the isocost line running though point A and the isocost line running
through point C. The long-run change in cost is the difference between the cost implied
by the isocost line running through point A and the isocost line running through point B.
But that isocost line also runs through point D, which is further away (horizontally) from



                                                   27
U.S. Postal Service Office of Inspector General                                                     January 9, 2013
Short-Run Costs and Postal Pricing                                                                 RARC-WP-13-004


point A than is point C. Thus, the change in cost in the long run is greater than the
change in cost in the short run.

The intuition behind this result is that by being able to reduce both inputs the firm can
save more in the long run, following a volume decline, than it can in the short run. Thus,
the long-run marginal cost is larger than the short-run marginal cost. But the result
works in the opposite direction, too. After an increase in output (Figure 3), it is cheaper
for the firm to move from point C to point A (short run) than it is to move from point B to
point A (long run). This means in a condition of excess capacity the short-run marginal
cost is less than the long-run marginal cost for increases as well as decreases in output.

The Relationship among Long-Run and Short-Run Cost Measures

The usefulness of short-run cost concepts as a basis for pricing depends, in part, upon
their relationship to long-run cost concepts. In addition, determining the profitability of a
pricing scheme based upon short-run costs may depend on the relationship among
short-run cost measures. For these reasons it is important to examine and articulate the
relationship among the familiar cost measures in the short run and long run.

As demonstrated above, the long-run cost of producing a level of output is associated
with the firm using the cost-minimizing combination of inputs. This means that LRTC is
the lowest possible cost for producing any level of output. The “best” that a short-run
cost function can do is to match the long-run cost function at the level of output for
which the amount of the fixed input just equals the optimal amount. For all other levels
of output, the SRTC function will generate a higher level of cost and SRTC will exceed
LRTC. This means that SRTC is never less than LRTC.

This relationship is highlighted for a firm with Cobb Douglas production and increasing
returns to scale in Figure 5, 32 where the level of output at which the amount of the fixed
input equals its optimal value is 13 units. At that level of output the two cost curves are
tangent; at all other points the SRTC lies above the LRTC.




32
   This will occur when the sum of the coefficients on the inputs in the production function exceeds one. The Cobb
Douglas production function is presented in the mathematical derivation at the end of this appendix. That derivation
also presents the short-run and long-run cost functions associated with Cobb Douglas production.


                                                          28
U.S. Postal Service Office of Inspector General                                        January 9, 2013
Short-Run Costs and Postal Pricing                                                    RARC-WP-13-004

                                                   Figure 5: Total Cost Curves



                          $140

                          $120

                          $100
    Level of Total Cost




                           $80
                                                                                       LRTC
                           $60                                                         SRTC

                           $40

                           $20

                           $0
                                 0   2   4   6   8 10 12 14 16 18 20 22 24 26 28 30
                                                      Level of Output

The relationship between the SRTC and LRTC curves also determines the relationship
between average total cost curves. Average total cost is just the ratio of total cost to
output, so whenever SRTC exceeds LRTC, short-run average total cost (SRATC) also
exceeds long-run average total cost (LRATC).

Less obvious is the relationship between long-run average variable cost (LRAVC) and
short-run average variable costs (SRAVC). This relationship is most easily seen in a
case where there are no long-run fixed costs. In this case, long-run average total costs
equal long-run average variable costs and can be labeled just long-run average costs
(LRAC). Because the short run arises due to the fact that at least one input is fixed, it is
possible that the short-run average variable cost (SRAVC) could be less than the long-
run average cost (LRAC). This would occur, for example, when the amount of the fixed
input is large relative to the level of output and only a small amount of the variable
inputs would be needed to produce the desired level of output in the short run.

This possibility is illustrated in the Figure 6 for the case of the Cobb Douglas production
with one fixed input. At low levels of output, the short-run average variable cost is below
the long-run average cost while the short-run average total cost is well above the long-
run average cost. This illustrates the role of the fixed input in determining the nature of
short-run costs.




                                                               29
U.S. Postal Service Office of Inspector General                               January 9, 2013
Short-Run Costs and Postal Pricing                                           RARC-WP-13-004

                                     Figure 6: Average Cost Curves

      $12.00

      $10.00

       $8.00

       $6.00                                                                   LRAC
                                                                               SRATC
       $4.00
                                                                               SRAVC
       $2.00

       $0.00
                 1    3    5   7    9 11 13 15 17 19 21 23 25 27
                                         Level of Output



Because of the role that marginal cost plays in pricing, the cost relationship that gets the
most attention is the one between long-run marginal cost (LRMC) and short-run
marginal cost (SRMC). As demonstrated above, when the amount of one input is
constrained, the relationship between the short-run and long-run marginal costs
depends upon whether output is above or below that associated with the optimal
capacity of the fixed input. In cases where the output is above where the fixed input
would be optimal, the short-run marginal cost will exceed the long-run marginal cost but
in cases of where the output is below where the fixed input would be optimal, the long-
run marginal cost will exceed the short-run marginal cost.

Graphically, this means for any output level below the one for which the amount of the
fixed input is optimal, the SRMC will lie below the LRMC curve. This is roughly
associated with the condition of “excess capacity.” The opposite condition will occur for
output levels above the one for which the amount of the fixed input is optimal. This is
roughly associated with the condition of insufficient capacity. These conditions are
illustrated in Figure 7.




                                                   30
U.S. Postal Service Office of Inspector General                                                  January 9, 2013
Short-Run Costs and Postal Pricing                                                              RARC-WP-13-004

                                              Figure 7: Long-Run and Short-Run Marginal Costs



                                         $7

                Level of Marginal Cost   $6

                                         $5

                                         $4
                                                                                                   LRMC
                                         $3                                                        SRMC

                                         $2

                                         $1

                                         $0
                                              1 3 5 7 9 11 13 15 17 19 21 23 25 27 29
                                                         Level of Output


The last set of conditions that needs to be reviewed is the set that describes the
relationships among the short-run cost curves. These conditions are important because
they determine whether or not pricing at SRMC will lead to an increase or decrease in
profits for the firm. Simply because a firm’s price is above its SRMC does not ensure
that the price is sufficiently high so that the firm is earning a profit on the units sold. For
a positive profit to be earned, the firm must also charge a price that is above its short-
run average total cost (SRATC). However, in the short run, the firm may want to
produce and sell even if the price does not quite reach this level. If the firm’s price is
above its short-run average variable cost (SRAVC) then its sales will be making a
contribution to covering the firm’s fixed cost, associated with the firm’s fixed input. While
this does not provide a sustainable price for the firm in the long run, it does allow it to
reduce its losses in the short run.

The relationship among these three short-run curves depends upon the nature of the
production process. In most instances, the existence of a fixed input will subject the
other inputs to diminishing returns (declining marginal product). If so, the SRMC curve
will lie below the SRATC at output levels below its minimum and will lie above the
SRATC at output levels above its minimum. In addition, because it is increasing
everywhere, the SRMC curve will lie above the SRAVC curve. This case is illustrated in
the Figure 8 for Cobb Douglas production. Note that in this case, if the firm sets a price
equal to or above its SRMC, it is assured of at least covering its short-run variable
costs.




                                                                    31
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004

                                             Figure 8: Short-Run Cost Curves


                    $12.00

                    $10.00

                     $8.00
    Cost per Unit




                     $6.00                                                        SRMC
                                                                                  SRAVC
                     $4.00
                                                                                  SRATC
                     $2.00

                     $0.00
                             1   3   5   7    9 11 13 15 17 19 21 23 25 27
                                                Level of Output


While the existence of a fixed factor means that diminishing returns will eventually set
in, it may not occur over the relevant range of production. If the technology is such that
the variable factors are experiencing increasing marginal product over the relevant
range, then it is possible for the SRMC to lie below both the SRATC and the SRAVC
cost curves.




                                                           32
U.S. Postal Service Office of Inspector General                                                    January 9, 2013
Short-Run Costs and Postal Pricing                                                                RARC-WP-13-004


Mathematical Derivation


The general form for long-run production with two inputs is given by:

                                                  𝑦 = 𝑓(𝑥1 𝑥2 ).

Using the Cobb-Douglas function form yields 33:
                                                               𝛽
                                                   𝑦 = 𝑥1𝛼 𝑥2 .

The long-run cost function is derived from minimizing the cost of any level of output
given the Cobb Douglas technology:
                                                                                   𝛽
                               min 𝐶 = 𝜔1 𝑥1 + 𝜔2 𝑥2, 𝑠. 𝑡. 𝑦 = 𝑥1𝛼 𝑥2 .

Solving this problem yields the following set of first order conditions:


                                       𝜕𝐶                  𝛽
                                           = 𝜔1 − 𝜆𝛼𝑥1𝛼−1 𝑥2 = 0.
                                       𝜕𝑥1

                                       𝜕𝐶                𝛽−1
                                           = 𝜔2 − 𝜆𝛽𝑥1𝛼 𝑥2   = 0.
                                       𝜕𝑥2

                                           𝜕𝐶            𝛽
                                              = 𝑦 − 𝑥1𝛼 𝑥2 = 0.
                                           𝜕𝜆

Solving the first order conditions yields the input demand functions:


                                                                    𝛽
                                                       1      𝛼𝜔2 𝛼+𝛽
                                           𝑥1 =     𝑦 𝛼+𝛽   �     �   .
                                                              𝛽𝜔1
                                                                     𝑎
                                                       1
                                                  𝛽𝜔1 𝛼+𝛽
                                  𝑥2 =          �   𝑦 𝛼+𝛽
                                                      �    .
                                                  𝛼𝜔2
The input demand functions can be substituted back into the cost equation to produce
the long-run cost function that relates total cost to the level of output and input prices:

                                                      𝛽                    𝛼
                                        𝛼𝜔2 𝛼+𝛽        𝛽𝜔1 𝛼+𝛽      1
                            𝐶(𝑦) = �𝜔1 �     �  + 𝜔2 �     �   � 𝑦 𝛼+𝛽 .
                                         𝛽𝜔1           𝛼𝜔2


33
  Examination of the Cobb-Douglas functional form is useful because it permits analysis of both constant returns to
scale and increasing returns to scale, both of which occur in the postal context.


                                                          33
U.S. Postal Service Office of Inspector General                                            January 9, 2013
Short-Run Costs and Postal Pricing                                                        RARC-WP-13-004



Now suppose the amount of x2 that the firm uses is fixed. The production function will
reflect this fixity (the bar indicates that the amount of x2 is constant):
                                                      𝛽
                                            𝑦 = 𝑥1𝛼 𝑥̅2 .

With just one variable input, there is just one input demand function derived through
cost minimization:
                                                       1         𝛽
                                             𝑥1 = 𝑦 𝛼 (𝑥̅2 )−𝛼 .

This expression can be used to derive the short-run cost function:
                                                   1         𝛽
                                    𝐶(𝑦) = 𝜔1 𝑦 𝛼 (𝑥̅2 )−𝛼 + 𝜔2 𝑥̅2.

These results can be used to derive expressions for the familiar short-run and long-run
cost measures.


                                                                     𝛽                𝛼
                           1     1−𝛼−𝛽      𝛼𝜔2 𝛼+𝛽        𝛽𝜔1 𝛼+𝛽
                  𝐿𝑅𝑀𝐶 = �    � 𝑦 𝛼+𝛽 �𝜔1 �     �   + 𝜔2 �     �   � .
                          𝛼+𝛽               𝛽𝜔1            𝛼𝜔2


                                                             𝛽                    𝛼
                                     1−𝛼−𝛽         𝛼𝜔2 𝛼+𝛽        𝛽𝜔1 𝛼+𝛽
                       𝐿𝑅𝐴𝐶 =       𝑦 𝛼+𝛽     �𝜔1 �     �  + 𝜔2 �    �    � .
                                                    𝛽𝜔1          𝛼𝜔2




                                                  1     1−𝛼      −𝛽
                                      𝑆𝑅𝑀𝐶 =        𝜔1 𝑦 𝑎 (𝑥̅2 ) 𝛼 .
                                                  𝛼

                                                            1−𝛼      −𝛽
                                                                        .
                                      𝑆𝑅𝐴𝑉𝐶 = 𝜔1 𝑦           𝑎 (𝑥̅2 ) 𝛼




                                                1−𝛼      −𝛽
                              𝑆𝑅𝐴𝑇𝐶 =       𝜔1 𝑦 𝑎 (𝑥̅2 ) 𝛼          + ω2 x� 2 y -1




                                                       34
U.S. Postal Service Office of Inspector General                                January 9, 2013
Short-Run Costs and Postal Pricing                                            RARC-WP-13-004



Appendix B               Questions Associated with Basing Prices on Short-
                         Run Costs

When considering the use of short-run costs as a basis for prices, firms must consider
both the size of the potential benefits from their use along with the likelihood of
achieving those benefits. That likelihood depends upon factors like how observable and
measurable is the firm’s excess capacity and how much is known about consumer
response to price changes. To make an informed decision, the firm must carefully
analyze and assess these important issues. Yet that is not the end of the inquiry.
Suppose that a firm does a careful evaluation and decides it would be in its benefit to
set prices based upon short-run costs. There still are a number of important questions
related to implementing the approach and these questions are addressed in this
section.

How Do Short-Run Costs Fit Into an Overall Pricing Strategy?

Short-run costs are potentially useful when a firm is facing a period of time during which
it cannot “right-size” at least one of its inputs. This can be a period of either excess
capacity or insufficient capacity. In either case, when a firm is in this situation, it faces
the choice of changing its price in an attempt to match the demand for its product to its
current capacity to produce that product. In general, this is a temporary price change
that will last only until the firm’s optimal capacity meets the market demand for its
product.

Short-run costs provide a basis for determining and evaluating those short-run prices. In
addition, short-run costs provide a method of quantifying the impact of excess or
insufficient capacity and provide the firm with information about the opportunity to
mitigate the negative financial consequences of not being able to adjust all of its inputs.
Short-run costs are also useful for tracking the change in unit costs that take place as
the firm changes prices and its level of output. For example, short-run marginal cost
tracks how a product’s unit cost changes as the firm makes better use of its excess
capacity. This is essential information for deciding if short-run prices should be adjusted.
In sum, short-run costs are essential pieces of information for helping a firm decide if it
is in its interest to deviate from its long-run prices.

What Measures of Short-Run Cost Should Be Used?

Short-run marginal cost is the starting point for short-run pricing as it measures the
additional resources required to produce and sell any additional output. At a minimum,
short-run prices must exceed short-run marginal costs or the firm should not sell any
additional output. However, it is possible that a firm’s prices could meet this standard
and it still should not produce and sell any additional output. This would occur if the
firm’s price exceeds its short-run marginal cost but does not exceed its short-run
average variable cost. In this situation, the price being charged is so low that the
revenue earned on the product is less than the variable cost incurred in providing it.


                                                  35
U.S. Postal Service Office of Inspector General                                                        January 9, 2013
Short-Run Costs and Postal Pricing                                                                    RARC-WP-13-004


This means that the firm is increasing, not reducing, its losses by providing the
product. 34

In a multiproduct firm, average variable cost does not exist, so the firm needs to check
whether the short-run price exceeds the product’s short-run average incremental cost
(SRAIC). The SRAIC is the total additional cost that the firm incurs in providing the total
amount of a product. It can be found by comparing what it costs the firm, in the short
run, to provide its full set of products with what it costs the firm, in the short run, to
provide the total volume (V) of all its products except the one being studied. This is the
difference between its SRTC of all products and its SRTC of all products except the one
being studied and provides the product’s short-run incremental cost (SRIC). To find the
product’s SRAIC, the SRIC must be divided by the product’s volume.

Mathematically, the firm’s SRAIC for product “A” is given by:
                                                𝑆𝑅𝑇𝐶(𝑉)− 𝑆𝑅𝑇𝐶(𝑉− 𝑉𝐴 )
                                𝑆𝑅𝐴𝐼𝐶𝐴 =                   𝑉𝐴
                                                                         .

In sum, the firm should use a product’s short-run marginal cost as the basis for setting
price and then check to ensure that the chosen price exceeds the product’s short-run
average incremental cost.

What Is the Correct Time Horizon for Using Short-Run Costs?

Short-run costs arise because of the inability of the firm to adjust one of its inputs.
Therefore, theoretically, the short run exists only until that input is adjusted to its optimal
level. This means that the correct time horizon for using short-run costs is the period
until the firm has been able to adjust all of its inputs.

On a practical level, determining the appropriate time horizon depends upon the reason
that the short run occurred. For example, if the short run arises because of fluctuating
demand, then the short run is defined by the period over which the fluctuations take
place. Suppose there is a seasonal pattern to demand so that demand is abnormally
low in the summer and the firm cannot adjust capacity to match demand for that period.
Then, the time horizon for short-run costs would be the summer period until volume
returns to its normal level. Note that in this situation, the short run would recur each
year.

In contrast, suppose the short run arose because of accidental overcapacity that arose
because the firm overestimated how quickly the demand for its product would grow
when purchasing a large capital input. In this case, the time horizon for the short run is

34
  Note that because of fixed cost, the firm might not be earning a positive profit on a product even if its price
exceeds its average variable cost. To make a positive profit, a product’s price must exceed its average total
cost, which includes its average fixed cost. However, as long as a product’s price exceeds its average
variable cost, the firm should produce and sell it, even if the price does not cover the product’s average total
cost. This is because when the price exceeds average variable cost, the firm is earning a surplus that can be
used to pay the fixed cost. Simply because that surplus is not big enough to cover the entire fixed cost does
not mean that it is not beneficial for the firm.


                                                           36
U.S. Postal Service Office of Inspector General                                                           January 9, 2013
Short-Run Costs and Postal Pricing                                                                       RARC-WP-13-004


the period until capacity is adjusted because either demand grows sufficiently to meet
the firm’s capacity or the firm reduces its capacity to meet demand. Lastly, if excess
capacity is caused by declining demand, the short run may be ongoing if the firm does
not adjust capacity or does not adjust capacity enough to match the fall in demand.

Is the Short Run the Same for All Products?

The short run is defined by a condition – the inability to adjust – that relates to one of
the firms inputs, not to its outputs. This means that any product that uses this inflexible
input will be in the short run. Whether or not this is all of the firm’s products depends
upon the technology of production and the degree to which they share inputs. It is
possible for one subset of the firm’s products to make use of the affected input and
another subset to not use it. In that case, only some of the firm’s products would be in
the short run, while others would be in the long run.

Is It Appropriate to Base Some Product Prices on Short-Run Costs and Other
Product Prices on Long-Run Prices?

The firm’s choice to use short-run costs to set prices depends upon both conditions
within the firm and conditions relating to the firm’s customers. If the internal or external
conditions differ by product, then it could be appropriate to base some of the firm’s
prices on short-run costs while other prices are based upon long-run costs. One such
situation arises when only a subset of the firm’s products makes use of the inflexible
input. The prices for that subset of products could then be based on short-run costs
while the rest of the firm’s products are based upon long-run costs.

Even if all the firm’s products share the same technology, it is still possible to envision a
situation in which just a subset of the firm’s prices was based on short-run costs.
Suppose a firm had two products, one of which had very price-sensitive customers and
the other of which had very price insensitive customers. Further suppose the firm has
too much of an input that is used by both goods. That means each good’s short-run
marginal cost would be less than the corresponding long-run marginal cost. But, the firm
might use short-run pricing only for the first good, which has price-sensitive customers.
Lowering the price for the price-sensitive good would expand demand and help the firm
make use of its excess capacity. 35 It would also help defray the associated fixed cost.
However, lowering the price for the other good would simply lower the firm’s revenue
and would not expand output. The price for that good should continue to be based upon
its long-run cost.




35
   To the extent that the Postal Service is able to lower a price for a particular subset of customers that are sensitive
to price declines (in order to maximize its revenue gain from this change), it will have to be able to effectively limit the
price change to just the price-sensitive subset of customers.


                                                             37
U.S. Postal Service Office of Inspector General                                                        January 9, 2013
Short-Run Costs and Postal Pricing                                                                    RARC-WP-13-004



Appendix C                  Practical Issues Measuring Short-Run Marginal Costs

In the main paper, we provided the analytical basis for calculating short-run marginal
cost and presented and explained a computational algorithm for doing so. However,
there are a number of practical issues related to calculating these costs that bear
discussion. We present these practical issues in this appendix.

What Is the Relationship Between Short-Run Marginal Costs and the Postal
Service’s Volume Variable Costs?

The Postal Service’s product cost model calculates a measure called “volume variable
cost per piece” for postal products. 36 It can be shown that this measure provides an
estimate of the marginal cost for those products. However, an important issue for this
analysis is whether the Postal Service is estimating short-run or long-run marginal cost
with its volume variable cost measure.

The Postal Service normally calculates its volume variable costs over a three- to- four-
year time horizon, which allows it to vary a wide range of inputs in response to demand
changes. In addition, a review of the inputs which the Postal Service assumes respond
to changes in volume include buildings, vehicles, supervisory labor, and equipment.
These are the types of inputs that are typically held fixed in a short-run analysis. On the
other hand, the Postal Service’s cost system does include some fixed costs and only
about 60 percent of its total cost is considered volume variable.

Taken together, the facts indicate that the Postal Service’s cost system is measuring
long-run marginal cost. 37 Although 40 percent of total cost is not attributed to products,
very little of that amount is due to fixed cost. Nearly all of the 40 percent is made up of
“network costs” generated by economies of scale or density, which is consistent with
long-run costing. Moreover, those costs that are assumed to be fixed with respect to
volume (like the fixed part of its delivery network) would continue to be fixed even over
any time horizon. Finally, both the Postal Service and the Postal Rate Commission have
identified the Postal Service’s product costs as estimating long-run marginal costs. 38

Previous Work Calculating Short-Run Marginal Costs

The Postal Service has already calculated a version of short-run marginal costs. In May
2009, the Postal Service filed a notice with the Postal Regulatory Commission of its
intention to change prices for Standard Mail in the form of a program entitled, “Standard

36
   For a more detailed analysis of how these costs are calculated see U.S. Postal Services Office of Inspector
General, A Primer on Postal Costing Issues, RARC-WP-12-008, March 20, 2012,
http://www.uspsoig.gov/foia_files/RARC-WP-12-008.pdf.
37
   We note that the Postal Service estimates practical long-run costs, not the theoretically ideal long-run costs. The
Postal Service approach is to allow for adjustments in its labor and capital inputs, but there is no guarantee that the
adjustments lead to the exact optimal amounts.
38
   See Postal Regulatory Commission, “Response of the United States Postal Service to Chairman’s Information
Request No.1,” Docket No. R2009-3 at 17, May 15, 2009.


                                                           38
U.S. Postal Service Office of Inspector General                                                    January 9, 2013
Short-Run Costs and Postal Pricing                                                                RARC-WP-13-004


Mail Volume Incentive Pricing Program” (Summer Sale program). The program was a
series of price reductions for Standard Mail that would last for the period between
July 1, 2009 and September 30, 2009. The Postal Service partly justified these price
reductions by suggesting it was experiencing a period of excess capacity, primarily
caused by the cyclical decline in volume induced by the recession of 2008-2009.
Further, the Postal Service argued that this excess capacity caused the concurrent
short-run marginal costs to be less than its traditional long-run marginal costs. It then
calculated short-run marginal cost for Standard Mail products to show that the reduced
prices still exceeded their short-run marginal costs.

The Postal Service’s approach to calculating short-run marginal cost was essentially to
“zero out” any cost segment elasticities (variabilities) for which it determined it had
experienced excess capacity and then add together the remaining volume variable
costs from the other cost segments. 39 Setting a cost elasticity (variability) equal to zero
means that none of the component’s accrued cost will be attributed to products, so the
resulting short-run marginal cost, calculated in this way, is necessarily less than the
associated long-run marginal cost. For the sake of the specific price incentive program,
the Postal Regulatory Commission accepted the Postal Services’ approach to
calculating short-run marginal costs but indicated that the use of short-run marginal
costs raises larger methodological issues that it may wish to visit at a future point: 40

         The Commission agrees that the Postal Service’s use of short-run
         marginal cost to justify a change in price raises methodological issues
         which may impact future pricing incentive programs and the Commission’s
         Annual Compliance Determination. The methodological change has broad
         implications which warrant examination. This, however, is not the forum
         for that examination. The Summer Sale program is unique on several
         levels and can, for purposes of this proceeding, be addressed on the
         merits. After this program has been completed and its results analyzed,
         the Commission may better evaluate whether to initiate a proceeding to
         consider the methodological issues surrounding short-run marginal cost
         pricing.

The Postal Service again filed a notice of price adjustment for Standard Mail in 2010
that was similar to the one approved by the PRC in 2009. The short-run costing
methodology in the 2010 filing was similar to the one used in the 2009 filing, with the
exception that the 2010 filling no longer assumed there was excess capacity in city
carriers and the associated cost segments returned to using their long-run elasticities. 41



39
   A “cost segment” is an aggregation of cost components. The Postal Service’s product cost model has 18 active
cost segments. It has dozens of cost components. The one exception to the general approach to calculating short-run
marginal cost was for cost segment 6, “City Delivery Carriers - Office Activity” for which the Postal Service assumed
that the short-run elasticity was 75 percent of the long run elasticity.
40
   Postal Regulatory Commission, “Order Approving Standard Mail Volume Incentive Pricing Program,” Docket No.
R2009-3, June 4, 2009. http://www.prc.gov/Docs/63/63340/Order219.pdf, starting on page 8.
41
   Postal Regulatory Commission, “United States Postal Service Notice of Market-Dominant Price Adjustment.”
Docket No. R2010-3, February 26, 2010. http://www.prc.gov/Docs/66/66935/Not.MD.Pr.Ad.Sum.Sal.2010.pdf.


                                                         39
U.S. Postal Service Office of Inspector General                                   January 9, 2013
Short-Run Costs and Postal Pricing                                               RARC-WP-13-004


Preliminary Identification of Where Adjustment Constraints Have Arisen

The Postal Service is different from other utilities that calculate short-run marginal cost
in that it does not have a single large capital input, like a power generating plant, which
is difficult to adjust to changes in demand. In addition, the Postal Service must consider
both its labor inputs along with its capital inputs when analyzing inflexibilities. While the
actual identification of inflexibilities is a task the Postal Service must accomplish using
its detailed knowledge of its operations and legal structure, a preliminary list of possible
locations provides an example of the analysis required.

A first place to investigate is the set of labor contracts that bind the Postal Service’s
relationship with its unionized employees. To the extent work rules and layoff
restrictions constrain the Postal Service from right-sizing its workforce, either in terms of
hours or employees, adjustment inflexibilities arise. Inflexibilities may vary by worker
craft and analysis of short-run marginal costs should consider these differences.

Another place that bears investigation is the set of political and regulatory constraints on
Postal Service business decisions, such as its universal service obligation. For
example, if this obligation requires the Postal Service to have more Post Offices open
then justified by a business case, an inflexibility that generates excess capacity arises.

A third set of areas to investigate inflexibilities covers the Postal Service’s four
networks: retail, mail processing, transportation, and delivery. Each of these networks
should be carefully examined to identify any structures required to keep the network
running that make it difficult to downsize in response to volume declines. For example, if
a portion of the transportation network must be maintained to achieve service
standards, regardless of volume, excess capacity in the transportation network could
arise. Similarly, the requirement to provide delivery to almost every address in the
country six days a week could generate capacity inflexibilities in an era of declining
volume.

Challenges in Calculating Short-Run Marginal Costs

Because the proposed computational algorithm for calculating short-run marginal cost is
embedded in the Postal Service’s existing product cost system, some parts of its
implementation are relatively straightforward. Other parts are more challenging because
they require a deviation from ongoing methods of cost calculation. The challenging
aspects include:

       Documenting the impediments to adjustment in inputs – The Postal Service’s
        current product costing system generally assumes that inputs can be adjusted to
        volume changes, so it has not accumulated documentation on impediments to
        adjustment. Generating the documentation to support the identification of
        inflexibilities will require a new effort and will require significant input from experts
        in postal operations.




                                                  40
U.S. Postal Service Office of Inspector General                                 January 9, 2013
Short-Run Costs and Postal Pricing                                             RARC-WP-13-004


       Measuring the degree of inflexibility in affected inputs – To calculate short-run
        marginal costs, it is not enough just to identify where inflexibilities will occur. A
        measurement of the degree of those inflexibilities is also required. This means
        that an examination of operational methods and historical data will be needed to
        estimate how much of an impact the identified inflexibilities are having.

       Calculating the amount of excess capacity created by the inflexibility – During a
        period of secular decline, the inability to adjust inputs means that excess capacity
        arises and the resulting excess capacity gives rise to short-run marginal costs.
        An important step in calculating short-run marginal costs is the measurement of
        the degree to which the current mix of inputs is suboptimal through the
        measurement of excess capacity. This requires establishing a baseline capacity
        as well as measuring current throughputs.

       Linking the excess capacity to the short-run variability and estimating the
        resulting variability – The last step in the short-run marginal cost computational
        chain is estimating the impact of the excess capacity on short-run marginal cost.
        If only one input is used and it is in excess capacity in all applications across the
        entire postal network, then the short-run cost elasticity is zero because the
        amount of the input remains the same regardless of what happens to volume.
        However, if multiple inputs are used or if the degree of excess capacity varies
        across the network the computation of the effect on the short-run cost elasticity is
        more difficult and econometric estimation, functional analysis, or operational
        assumptions must be applied.

Should Short-Run Marginal Costs Be Estimated Separately by Each Product?

Short-run marginal costs arise because a firm cannot optimally adjust its inputs to
changes in demand for its products. For the Postal Service’s current situation, this
means it cannot reduce the amount of certain inputs in response to ongoing demand
declines. This lack of adjustment arises from either internal or external constraints on its
operations and affects the cost of its providing its products.

While the impact of inflexibilities is not necessarily the same for all products, the effect
takes place at the same time. If two products make use of an input that is in excess
capacity, the short-run cost of providing both of those inputs will be affected as long as
the input is in excess supply. Consequently, it is appropriate to estimate the short-run
marginal costs for all products at the same time. The efforts required to implement the
proposed computational algorithm generally apply to all products so few additional
resources are required to cover all products.

Note that the Postal Service does not have to use the calculated short-run marginal
costs to set prices for all products. As explained above, differences in the demand for
individual products may lead to a choice of using long-run marginal costs as the basis
for pricing some products while using short-run marginal costs as the basis of pricing for
others. Nevertheless, the calculation of short-run marginal costs for all products would
provide useful information in making important business decisions.


                                                  41
